q,(r U

CZD

K6
Wo

\

S'!

WGmA L

UNITED STATES SUPREME COURT
On Petition for Writ of Certiorari to the United States Court of Appeals for the FirstrGir-euit
United States ex rel Friedrich Lu, Petitioner
v
Ramandeep Samra, Trustees of Boston University, Trustees of Tufts College,
Gamboa-Ruiz and United States, Respondents
PETITION FOR WRIT OF CERTIORARI
Friedrich Lu, pro se
Petitioner:
June 5, 2020
Date:
Email address:chi2flu@gmail.com
Address:
% St Francis House, PO Box 499, Lafayette Station, Boston, MA 02112

filed
l&R 1 1 2020

QUESTION PRESENTED FOR REVIEW
Under False Claims Act, may a relator proceed pro se, or must he hire an attorney?
JURISDICTION. PLUS CASES AND OPINIONS BELOW
(1)

Absent separate opinions, the First Circuit entered judgments on both cases on Dec 12,

2019 (which appear at Appendix 1 and 2), neither of which was published. No rehearing was
sought in either case. Lu sought the petition on Mar 11, 2020, which the clerk’s office of this
court returned for the sake of format on Apr 6, 2020. Under 28 USC § 1254(1), the Court has
jurisdiction over this petition, based on S Ct Rule 12.4 (same question arising from 2 judgments).
(a)

United States ex rel Friedrich Lu and Friedrich Lu v Ramandeep Samra, Trustees of

Boston University, and Trustees of Tufts College. United States Court of Appeals for the First
Circuit No 18-1213; and
(b)

United States ex rel Friedrich Lu and Friedrich Lu v Marielena Gamboa-Ruiz and

Trustees of Tufts College. United States Court of Appeals for the First Circuit No 19-1381.
(2)

The opinions of United States district court appear at Appendix 3 and following, and is

unpublished. They are United States ex rel Lu v Samra, No 17-cv-10119-IT, and United States ex
rel Lu v Gamboa-Ruiz, No 18-CV-10105-IT.

(3)

Under S Ct Rule 29.4(b), a copy of this petition is served on the same day by first-class

mail, postage prepaid, on United States Solicitor General, Room 5616, Department of Justice,
950 Pennsylvania Avenue, NW, Washington, DC 20530-0001.
(4)

Statute involved in the case: 31 USC § 3730(b)(1), provides in pertinent part:

“A person may bring a civil action for a violation of section 3729 for the person and for
the United States Government. The action shall be brought in the name of the Government.”
STATEMENT OF THE CASE

First Circuit Nos 18-1213 and 19-1381 both arose, under 28 USC § 1331, from the same
district judge of United States District Court for the District of Massachusetts, who dismissed the
cases with prejudice for the reason that a relator may not proceed pro se, citing an unpublished
case of First Circuit.
ARGUMENT
(1)

A case based on False Claims Act (FCA) “may be instituted by ‘any’ person in behalf of

the government.” United States ex rel Marcus v Hess (1943) 317 US 537, 540.
(2)

Yet all circuits that has decided the question whether a relator may proceed pro se have

answered in the negative: United States v Onan (CA8 1951) 190 F.2d 1, 6-7; United States ex rel
Lu v Ou (CA7 2004) 368 F.3d 773, 775-776, reaffirmed in Georgakis v Illinois State University
(CA7 2013) 722 F.3d 1075, 1077, n, 1078; Timson v Sampson (CA11 2008) 518 F.3d 870, 873
(citing cases from CAs 7, 8, 9); United States ex rel Mergent Services v Flaherty (CA2 2008)
540 F.3d 89, 93; Nasuti ex rel United States v Savage Farms, Inc (CA1) 2015 WL 9598315;
United States ex rel Brooks v Ormsby (CA5 2017) 869 F.3d 356.
To date, only the Third , Fourth, Sixth and Federal Circuits have not decided the issue.
(3)

Vermont Agency ofNatural Resources v United States ex rel Stevens (2000) 529 US 765

773, n 4 (“a qui tarn relator is, in effect, suing as a partial assignee of the United States”)
(emphasis original).
(4)

Blackstone was the first on record to link qui tarn actions to contract (in a broad sense).

Commentaries on the Laws of England. Book 3, Chap 9, at 159-160.
(5)

Historically, a qui tarn relator or an assignee has sued pro se. See Randy Beck, Qui Tam

Litigation Against Government Officials: Constitutional Implications of a Neglected History. 93

1

Notre Dame L Rev 1235, 1260 et seq; Roman Artemiev, Qui Tam Legal Concept and Practice:
Evolution of the Legislation in the United Kingdom and the United States of America. University
of Westminster, 2017, at 31, 33-46 (available online).
(6)

It is plain that a relator is not lawyering for the Government, who has counsel of record

who receives case files and may intervene later in the case if necessary.
(7)

An assignee is a real party in interest. Sprint Communications Co v APCC Services, Inc

(2008) 554 US 269, 287-289 (“There is an important distinction between simply hiring a lawyer
and assigning a claim to a lawyer (on the lawyer’s promise to remit litigation proceeds). The
latter confers a property right (which creditors might attach); the former does not”).
(8)

At stake is one’s right to represent himself in federal civil actions. 28 USC § 1654.

(9)

Recap: The relationship between a relator and the Government is contractual (partial

assignment), not attorney-client (no privilege or agency in either direction; relator’s attorney, if
any, represents the relator, not the Government). This is so manifest, that Lu fails to comprehend
why nobody sees it, particularly learned men and women sitting as judges.
CONCLUSION
The petition for a writ of certiorari should be granted.

Proof of service: Under penalty of perjury, Lu certifies that he served all documents to be filed, .
electronically on the same day — he can not hand-delivers them in paper form due to closure of
their offices with Covid 19 pandemic — on
attorney Lisa A Tenerowicz, representing Ramandeep Samra and Trustees of Boston
(1)
University;
attorney John G Wheatley, representing Trustees of Tufts College and Marielena
(2)
Gamboa-Ruiz;
Also Lu serves same day electronically on Assistant US Attorney Steven T Sharoben, as
well as a hard copy, under S Ct Rule 29.4(b), to Solicitor General, Solicitor General, Room 5616,
Department of Justice, 950 Pennsylvania Avenue, NW, Washington, DC 20530-0001.

